No.
In The

Supreme Court of tfje Mntteb States;
In re Grand Jury Investigation,
USAO NO. 2018R01761
(Grand Jury Subpoenas to Pat Roe)
Doe Company,
Petitioner,
v.
United States of America,
Respondent.
On Petition for a Writ of Certiorari to the United
States Court of Appeals for the Ninth Circuit

CERTIFICATE OF SERVICE
I am a member of the Bar of this Court, and I hereby certify pursuant to
Supreme Court Rules 29.3, 29.4 and 29.5 that I have, this 29th day of January,
2021, served three copies of the Petition for Writ of Certiorari (in both sealed and
redacted formats) upon each party separately represented in this proceeding by
causing them to be personally served on the office of the counsel of record (by hand
delivery) at the address listed below:
Elizabeth B. Prelogar
Acting Solicitor General of the United States
U.S. Department of Justice
950 Pennsylvania Avenue NW, Room 5616
Washington, D.C. 20530
Counsel of Record for Respondent
I further certify that all persons required to be served have been served.

1

Andrew Kim
Goodwin Procter LLP
1900 N Street, N.W.
Washington, DC 20036
andrewkim@goodwinlaw.com
(202) 346-4000
January 29, 2021

Counsel for Petitioner

